HHS/OIG-Audit--"Review of Illinois' Use of Intergovernment Transfers to Finance Enhanced Medicaid Payments to Cook County for Hospital Services, (A-05-00-00056)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Illinois' Use of Intergovernmental Transfers to Finance Enhanced
Medicaid Payments to Cook County for Hospital Services," (A-05-00-00056)
March 26, 2001
Complete Text of Report is available in PDF format
(905 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out a method used by Illinois to obtain additional
Federal Medicaid funds by circumventing the Medicaid requirement that expenditures
be a shared Federal/State responsibility. During the period July 1, 1991 through
June 30, 2000, Illinois made about $5.9 billion of enhanced payments to Cook
County operated hospitals for inpatient, outpatient, and clinic services under
the Medicaid program. About $3.0 billion of the $5.9 billion represented a payback
of funds that were initially made as intergovernmental transfers from Cook County
to the State. The remaining $2.9 billion represented the Federal share of the
payments. About $866.6 million of the $2.9 billion was returned by Cook County
to the State as windfall revenue and deposited to the State's General Revenue
Fund. Cook County used the enhanced payments to cover costs that would not otherwise
qualify for Medicaid funding. Cook County also has used the enhanced funding
to supplant the level of State and local tax supported revenue for these operations.
Further, although the State contended that it used the funds returned by the
County for health-related services, we could not confirm this contention. Among
other things, we recommended that the Health Care Financing Administration (HCFA)
take action to place a control on the overall financing mechanisms being used
by the State to circumvent the Medicaid program requirement that expenditures
be a shared Federal/State responsibility. The HCFA concurred and to address
the problem has issued revised regulations to be implemented over a transition
period to become fully effective on October 1, 2008. During this transition
period we estimate the Federal Government will save $1.2 billion in Illinois
alone.